CERTIFICATE OF WORD COUNT
NO. TBD
Loring Edwin Justice,
Petitioner,
v.
Board of Professional Responsibility of the Supreme Court of Tennessee,
Respondent..
___________
1. I am counsel of record for Petitioner Loring Edwin Justice.
2. As required by Supreme Court Rule 33.1(h), I certify that the LORING EDWIN JUSTICE
PETITION FOR WRIT OF CERTIORARI contains 8584 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

/s/ Linn Guerrero-Justice
200 Prosperity Place
Knoxville, TN 37923
(865) 584-8620
linn@loringjustice.com

December 18, 2019

SCP Tracking: GuerreroJustice-200 Prosperity Place-Cover White

